OIG Audit Report GR-80-07-009

Compliance with Standards Governing Combined DNA Index System Activities at the Joseph A. Jachimczyk Forensic Center, Harris County Medical Examiner, Houston, Texas

Audit Report GR-80-07-009


May 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Harris County Medical Examiner’s Office (Laboratory).1 The Federal Bureau of Investigation (FBI) began the CODIS program as a pilot project in 1990. The DNA Identification Act of 1994 (Act) formalized the FBI’s authority to establish a national DNA index for law enforcement purposes.2 The Act authorized the FBI to establish an index of DNA identification records of persons convicted of crimes and analyses of DNA samples recovered from crime scenes. The Act further specified that the indices include only DNA information that is based on analyses performed in accordance with quality assurance standards issued by the FBI.
The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically. The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS program to compare DNA profiles on a national level. NDIS became operational in 1998 and is managed by the FBI as the nation’s DNA database containing DNA profiles uploaded by participating states. DNA profiles originate at the local level, flow upward to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime or if crimes can be linked to each other. Thus, a laboratory’s profiles have to be uploaded to NDIS before the profiles benefit the system as a whole.
 The FBI provides CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis. Before a laboratory is allowed to participate at the national level a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory. The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize NDIS.3
 The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities. Specifically, we performed testing to determine if the: (1) Laboratory was in compliance with the NDIS participation requirements; (2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and (3) Laboratory’s DNA profiles in CODIS databases were complete, accurate, and allowable.
We determined that the Laboratory was in compliance with the standards governing CODIS activities. However, we noted the following exceptions.

 We tested 100 forensic profiles and determined that one was unallowable and one was inaccurate. The unallowable profile did not comply with NDIS DNA data acceptance standards because it was clearly not attributable to the suspect. Law enforcement identified the suspect in the case as a male. However, the profile uploaded to NDIS was that of an unknown female. A second profile was inaccurate because it was uploaded to NDIS using an incorrect specimen identification number. The remaining 98 profiles were complete, accurate, and allowable for inclusion in NDIS. 
 The Laboratory did not resolve 5 of the 10 NDIS candidate matches we reviewed within the required 30 business days. We found that the Laboratory was from 24 to 91 business days in excess of the allowable 30 business days for resolving candidate matches. Four of these five candidate matches occurred between August and December 2006. 

Laboratory personnel deleted the unallowable profile from Local DNA Index System (LDIS) and corrected the specimen identification number in LDIS as soon as we brought these problems to their notice. The Laboratory subsequently provided documentation that the unallowable profile had been deleted from NDIS and the specimen identification number had been corrected in NDIS. Additionally, the Laboratory provided documentation stating that as of February 8, 2007, Laboratory personnel are required to begin the match confirmation process within 2 weeks of the date the Laboratory is notified of the candidate match. We make no recommendations because the Laboratory has already taken appropriate corrective actions on our findings. 
The results of our audit are discussed in the Findings section of the report. Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II of the report. We discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable. 



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life. Approximately 99.9 percent of human DNA is the same for all people. The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
Pub. L. No. 103-322 (1994).
These standards were appended to the MOU as Appendix C - NDIS Procedure Manual. This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS. For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.








Return to OIG Home Page